?

y
t

\

A9PtAi Dices

I

1

4

fr

APP^OlX. /V

Untteh jitetcs Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted July 23, 2020
Decided August 6, 2020
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 19-3288
KENNETH CURRY,
Petitioner-Appellant,

Appeal from the United States District
Court for the Central District of Illinois.
No. 3:19-CV-03244-CSB

v.
Colin S. Bruce,
KESS ROBERSON,
Respondent-Appellee.

Judge.

ORDER
Kenneth Curry has filed a notice of appeal from the dismissal as untimely of his
petition under 28 U.S.C. § 2254, and an application for a certificate of appealability.
Having reviewed the final order of the district court and the record on appeal, we find
no substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is denied. Curry's
motion to proceed in forma pauperis also is denied.

4.

ft

ArPP^Af o\ )L *5

3:19-cv-03244-CSB # 5

Page 1 of 5

»

E-FILED
Thursday, 31 October, 2019 02:11:42 PM
Clerk, U.S. District Court, I LCD

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
KENNETH CURRY,
Petitioner,
v.
KESS ROBERSON,
Respondent.

)
)
)
)
)
)
)
)

Case No. 19-cv-3244

ORDER

On October 16, 2019, Petitioner filed a Petition Under 28 U.S.C. § 2254 for Writ of
Habeas Corpus by a Person in State Custody (#1). Petitioner has also filed a Motion to
Proceed in Forma Pauperis (#3). For the following reasons, the Petition is DISMISSED,
and this case is terminated.
BACKGROUND
On February 20,2003, Petitioner shot William Workman with a 12-gauge
shotgun and stole his wallet. Petitioner was charged with attempted first degree
murder, aggravated battery with a firearm, armed robbery, aggravated battery, and
aggravated unlawful restraint. On September 13,2004, Petitioner pled guilty to
attempted first degree murder and armed robbery in exchange for dismissal of the
remaining charges and a sentence of 20 years' imprisonment and three years of

1

3:19-cv-03244-CSB # 5

Page 3 of 5

ANALYSIS
1. Motion to Proceed in Forma Pauperis
Based on Petitioner's motion and supporting documents, the court finds
Petitioner is unable to pay the filing fee. His Motion to Proceed in Forma Pauperis (#3)
is GRANTED.
2. Habeas Petition
Rule 4 of the Rules Governing Section 2254 Cases in the United States District
Courts provides "[i]f it plainly appears from the petition and any attached exhibits that
the petitioner is not entitled to relief in the district court, the judge must dismiss the
petition ...." Here, because it plainly appears that Petitioner is not entitled to relief, his
Petition is dismissed.
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) established
a one-year limitations period for state prisoners to file for federal habeas relief under §
2254, which "run[s] from the latest of" four specified dates. Gonzalez v. Thaler, 565 U.S.
134,148 (2012). According to 28 U.S.C. § 2244(d):
(1) A 1-year period of limitation shall apply to,an application for a writ .
of habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation period shall run from the latest of—
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of the
United States is removed, if the applicant was prevented from filing by
such State action;
3

1

3:19-cv-03244-CSB #5

Page 5 of 5

♦ ’

CERTIFICATE OF APPEALABILITY
In Slack v. McDaniel, the United States Supreme Court held that "when the
district court denies a habeas petition on procedural grounds without reaching the
prisoner's underlying constitutional claim, a COA should issue when the prisoner
shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find
it debatable whether the district court was correct in its procedural ruling." Slack v.
McDaniel, 529 U.S. 473,484 (2000). "Where a plain procedural bar is present and the
district court is correct to invoke it to dispose of the case, a reasonable jurist could not
conclude either that the district court erred in dismissing the petition or that the
petitioner should be allowed to proceed further." Id.
Flere, the claim raised in the Petition is untimely by over a decade. The facts
before this court would not allow any reasonable jurist to conclude that the court has
erred in denying the petition. Therefore, a Certificate of Appealability is DENIED.
IT IS THEREFORE ORDERED THAT:
(1) Petitioner's Motion to Proceed in Forma Pauperis (#3) is GRANTED.
(2) Petitioner's Petition (#1) is DISMISSED!
(3) A Certificate of Appealability is DENIED.
(4) This case is terminated.
ENTERED this 31st day of October, 2019.
s/ Colin Stirling Bruce
COLIN S. BRUCE
U.S. DISTRICT JUDGE
5

A

i

A

(»

8

h11
___
f

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court
(217) 782-2035
TDD: (217) 524-8132

September 24, 2019

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Kenneth Curry
Reg. No. R33000
Lincoln Correctional Center
P.O. Box 549
Lincoln, !L 62656

THE COURT HAS TODAY ENTERED THE FOLLOWING ORDER IN THE CASE OF:
M.D.014374

Curry v. Roberson
The motion by petitioner for leave to file a petition for writ of habeas
corpus is denied.

Very truly yours

dM
Clerk of the Supreme Court

cc:

Attorney General of Illinois - Criminal Division

